No. 21-187
In The

Supreme Court of the United States
HAMDI MOHAMUD,
Petitioner,
v.
HEATHER WEYKER,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eighth Circuit
ACKNOWLEDGMENT OF SERVICE
I, Sheldon Eisenberg, hereby acknowledge that
1 unbound copy and 40 copies of the MOTION FOR
LEAVE AND BRIEF OF PETER SCHUCK AS
AMICUS
CURIAE
IN
SUPPORT
OF
PETITIONER in 21-187, Hamdi Mohamud v.
Heather Weyker, were sent via Federal Express
Overnight Service to the U.S. Supreme Court, and 3
copies were sent via Federal Express Overnight
Service and e-mail to the following parties listed
below, this 8th day of September, 2021:
Attorneys for Petitioner, Hamdi Mohamud
Patrick Michael Jaicomo
Counsel of Record

Institute for Justice
901 North Glebe Road
Suite 900
Arlington, VA 22203
pjaicomo@ij.org
Attorneys for Respondent, United States
Brian H. Fletcher
Counsel of Record
Acting Solicitor General
United States Department of Justice 950
Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Respectfully submitted,
September 8, 2021
_________________________________

SHELDON EISENBERG
Counsel of Record
Sullivan & Triggs, LLP
1230 Montana Avenue,
Suite 201
Santa Monica, CA 90403
(310) 451-8300

seisenberg@sullivantriggs.com

Counsel for AMICUS Curiae

